CERTIFICATE OF COMPLIANCE
No. 19V.

In the

Supreme Court of the United States
WILLIAM RUPERT,
Petitioner,
v.
SUSAN BOND, et al.,
Respondents,
As required by Supreme Court Rule 33.1(h), I
certify that the Petition for Writ of Certiorari
contains 8,974 words, excluding the parts of the
Petition for Writ of Certiorari that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on October 14, 2019.
William Rupert
Petitioner
Pro Se

